<html>
<title> - CYBER CRIME: AN EXISTENTIAL THREAT TO SMALL BUSINESS</title>
<body><pre>[Senate Hearing 116-47]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 116-47

                   CYBER CRIME: AN EXISTENTIAL THREAT
                           TO SMALL BUSINESS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2019

                               __________

    Printed for the Committee on Small Business and Entrepreneurship

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
        
                                
                                 __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-838 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="23534c63405650574b464f530d404c4e0d">[email&#160;protected]</a>                 
        
        
        
            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                     ONE HUNDRED SIXTEENTH CONGRESS

                              ----------                              
                     MARCO RUBIO, Florida, Chairman
              BENJAMIN L. CARDIN, Maryland, Ranking Member
JAMES E. RISCH, Idaho                MARIA CANTWELL, Washington
RAND PAUL, Kentucky                  JEANNE SHAHEEN, New Hampshire
TIM SCOTT, South Carolina            EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
JAMES M. INHOFE, Oklahoma            CHRISTOPHER A. COONS, Delaware
TODD YOUNG, Indiana                  MAZIE K. HIRONO, Hawaii
JOHN KENNEDY, Louisiana              TAMMY DUCKWORTH, Illinois
MITT ROMNEY, Utah                    JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri
             Michael A. Needham, Republican Staff Director
                 Sean Moore, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Rubio, Hon. Marco, Chairman, a U.S. Senator from Florida.........     1
Cardin, Hon. Benjamin L., Ranking Member, a U.S. Senator from 
  Maryland.......................................................     3

                               Witnesses
                                Panel 1

Roat, Ms. Maria, Chief Information Officer, U.S. Small Business 
  Administration, Washington, DC.................................     5
Romine, Dr. Charles, Director, Information Technology Laboratory, 
  National Institute of Standards and Technology, Washington, DC.    13

                                Panel 2

Smith, Ms. Stacey, President & CEO, Cyber Association of 
  Maryland, Inc., Baltimore, MD..................................    36
Hyman, Ms. Elizabeth, Executive Vice President, CompTIA, 
  Washington, DC.................................................    41
Harper, Ms. Karen A., President, Charles River Analytics, Inc., 
  Cambridge, MA..................................................    50

                          Alphabetical Listing

Cardin, Hon. Benjamin L.
    Opening statement............................................     3
COLSA Corporation
    Statement dated March 26, 2019...............................    92
Harper, Ms. Karen A.
    Testimony....................................................    50
    Prepared statement...........................................    52
    Responses to questions submitted by Chairman Rubio...........    89
Hyman, Ms. Elizabeth
    Testimony....................................................    41
    Prepared statement...........................................    43
    Responses to questions submitted by Chairman Rubio...........    86
Roat, Ms. Maria
    Testimony....................................................     5
    Prepared statement...........................................     7
    Responses to questions submitted by Chairman Rubio...........    72
Romine, Dr. Charles
    Testimony....................................................    13
    Prepared statement...........................................    15
    Responses to questions submitted by Chairman Rubio...........    78
Rubio, Hon. Marco
    Opening statement............................................     1
Smith, Ms. Stacey
    Testimony....................................................    36
    Prepared statement...........................................    39

 
                   CYBER CRIME: AN EXISTENTIAL THREAT
                           TO SMALL BUSINESS

                              ----------                              


                       WEDNESDAY, MARCH 13, 2019

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:31 p.m., in 
Room 428A, Russell Senate Office Building, Hon. Marco Rubio, 
Chairman of the Committee, presiding.
    Present: Senators Rubio, Scott, Ernst, Young, Kennedy, 
Hawley, Cardin, Cantwell, Shaheen, Markey, Duckworth, and 
Rosen.

OPENING STATEMENT OF HON. MARCO RUBIO, CHAIRMAN, A U.S. SENATOR 
                          FROM FLORIDA

    Chairman Rubio. The Senate Committee on Small Business and 
Entrepreneurship will come to order. I want to thank everyone 
that is here today, and I want to welcome our witnesses. We'll 
have two panels. I'll introduce them in a moment.
    This hearing will discuss one of the most challenging 
issues facing small businesses: cybersecurity.
    It's hard enough for small businesses to get up and running 
with changing markets, regulatory hurdles, and the cost of 
starting a business, but cyberattacks can bring a quick end to 
all of one's hard work.
    Foreign hackers and other cyber criminals are increasingly 
targeting small businesses to steal their intellectual 
property, trade secrets, and valuable information, and an 
equally nefarious practice is to hold hostage small businesses' 
operational and customer data in order to get a ransom payment.
    Small businesses are the victims in approximately 43 
percent of all attacks. While ransomware attacks on individuals 
have fallen, those attacks, ransomware attacks targeting 
businesses, rose 12 percent in the last year. Almost 55 percent 
of small businesses were victim to phishing attacks in 2017. 
That is up 30 percent from just 2 years before that.
    The risk of cybercrime is greater to small businesses, 
which lack, many cases, the dedicated IT staff, the 
sophisticated equipment that larger companies have in order to 
try and stay safe. Cybercriminals know that. They know small 
businesses may be unprepared for attacks, which is why small 
businesses are twice as likely to be targeted by phishing 
attacks.
    Consequences of cybercrime are also greater for small 
businesses, which operate on a smaller profit margin and are 
not always able to bounce back after a costly attack.
    The Department of Justice's Internet Crime Complaint Center 
recorded more than 300,000 cybersecurity complaints in 2017 
alone, which added up to more than $1.4 billion in losses, and 
we know that cyberattacks on small businesses are significantly 
underreported because either they do not know who to call or 
they do not want their customers to know that they are, or have 
been, potentially compromised.
    Because the risks to small businesses are so high today, I 
introduced, along with Senator Shaheen, the Small Business 
Cyber Training Act to create a cyber-strategy training program 
for the counselors at the small business development centers 
across the country. The bill will prepare them, these 
counselors, to provide vital advice on cybersecurity to 
entrepreneurs when it matters most: at the beginning of their 
businesses' life cycle. And perhaps, most importantly, 
counselors can make small businesses more aware of the very 
real cyber threats that they face.
    In addition to internal controls and protections for their 
own operations, businesses that want to work with the Federal 
Government are required to meet an extra level of cybersecurity 
protection under NIST contracting requirements.
    It is important for the Government to maintain a high level 
of security with its contractors, but the inability to meet 
certain cybersecurity criteria can begin to disqualify smaller 
companies, who cannot afford to build up the cyber capability 
necessary to service the Government.
    In fact, many times small businesses cannot even understand 
what the Government requires of its contractors. It is complex. 
We hope that NIST, the SBA, and other Government agencies will 
work together to educate and train small business contractors 
so that they can be equipped to take on business with the 
Government.
    Federal agencies face very real cyber threats, including 
the SBA. It may be a small Government agency in comparison to 
others, but for many small businesses, the SBA is an important 
gateway to loans, disaster relief, and business training. And 
that's why it's especially important that the IT system at the 
SBA be secure enough to protect very sensitive data that small 
businesses and lenders entrusted to the agency.
    The SBA Office of Inspector General has consistently ranked 
SBA's IT as one of the most serious challenges facing the 
agency. Specifically, the IG has recommended that the SBA 
continue to improve IT controls to address operational risks, 
such as cyberattacks.
    The SBA is moving quickly to modernize its systems, but we 
know that criminals often move even faster. In recent years, we 
have seen what happens when Government agencies let their guard 
down, as was the case with OPM in 2015 when personnel data of 
more than 4 million current and former Federal Government 
employees was stolen.
    The risk of cyberattacks for small businesses also 
compromises data that could harm U.S. national security. Our 
adversaries are laying the groundwork for cyber espionage by 
embedding their technology into the systems we depend on to do 
business, be it a small business or a Government business.
    Just last week, reports emerged showing that the Chinese 
hacking group APT40 has infiltrated IT systems of at least 27 
universities worldwide, including MIT, in an attempt to steal 
U.S. military information from less secure sources.
    These cybercriminals operate with the full backing of the 
Chinese Communist Party, and we must take proactive steps to 
deny the Chinese government and others access to our networks 
and to the personal information of small businesses.
    This is why I, along with the Rank Member Senator Cardin, 
introduced the SBA Cyber Awareness Act, which would require the 
SBA to develop a cyber strategy and to examine where the 
components in its IT system are manufactured.
    This bill would also require the SBA to report to this 
Committee about the cyber breaches and threats it faces so that 
we can give the SBA the tools that it needs to defend itself 
against future attacks.
    So we look forward to talking with our witnesses about ways 
to protect small business information from cybercriminals, 
while also helping them understand cyber guidelines and 
requirements that allow their full participation in the market.
    Now I recognize the Ranking Member.

OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, RANKING MEMBER, A 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, first of all, thank you 
for convening this hearing on a very important topic for small 
businesses.
    As I go around and meet with small business owners around 
the State of Maryland, around our Nation, cybersecurity and 
their capacity to deal with cyberattacks is always mentioned, 
and it is an area of great concern to the future growth of 
small businesses in our community.
    In recent years, the Senate has played close attention to 
the risk that cybercrime poses to our national security and our 
democracy. We have also confronted the risk posed to consumers 
when their private data is exposed by hacks at large 
corporations and Federal agencies like Target, Equifax, and 
OPM.
    As large companies and Government agencies continue to 
invest in cybersecurity and harden defenses, cybercriminals are 
increasingly turning their sights to softer targets, like small 
businesses that are unable to invest in the most cutting-edge 
cybersecurity technology.
    According to the 2018 Verizon report, 58 percent of data 
breech victims globally are small businesses. Small businesses 
with their narrow margins and lower capital reserves are unable 
to maintain trained cybersecurity personnel or purchase the 
most up-to-date tools. So for most small businesses, a data 
breach is a fatal blow.
    A 2017 Better Business Bureau survey revealed that more 
than half of all small businesses reported that they could not 
remain profitable for only--they could have remained profitable 
for only one month if they permanently lost access to the 
essential data, and only 35 percent reported that they could 
survive more than 3 months. These statistics are cause of great 
concern.
    So our goals for this hearing are twofold. First, we want 
to learn how SBA plans to comply with the Federal Data 
Management Standards outlined by the Federal IT Acquisition 
Reform Act, also known as FITARA. I was pleased to read last 
year's OIG report that found that the SBA has made substantial 
progress towards full compliance with FITARA. So I am looking 
forward to hearing from the SBA Chief Information Officer, 
Maria Roat, today about the tools and resources the SBA needs 
to achieve full compliance.
    Second, we want to know how we can help small businesses 
keep their data out of the reach of cybercriminals. I am 
grateful to the National Institute of Standards and Technology, 
which is one of many Federal, commercial, and academic 
cybersecurity assets in my home State of Maryland. It is 
already working to improve cybersecurity for small businesses, 
and I am eager to examine what is working well but also 
interested in learning how NIST is tailoring its guidance into 
practical steps that small businesses can take.
    Earlier this week, I was at NIST and had a chance to hear 
firsthand some of the work that you are doing. I am proud that 
in Maryland, we have the National Cybersecurity Center of 
Excellence, which partners with the State of Maryland, which 
provides incredible services in this challenging field.
    We also have the Information Tech Lab at NIST, which is an 
important asset for us to have to try to understand how we can 
be more effective in dealing with this challenge.
    Maryland is also home for U.S. Cyber Command, and we have 
University of Maryland. And, Mr. Chairman, I could go on and on 
about Maryland, but I know the State of Washington or Florida 
will want equal time. So I will move on.
    Just that I am proud that Maryland is a national leader in 
helping to expand cybersecurity resources to small businesses 
so they can not only be prepared for cyber threats but recover 
when hackers strike.
    Last year, our State enacted first-of-its-kind legislation 
to provide tax credits to small businesses that purchase 
cybersecurity products or services from a local qualified firm. 
The bill also created a tax credit for investors who invest in 
Maryland cybersecurity companies.
    Stacey Smith, the executive director of Cyber Association 
of Maryland, is here to share some of the lessons we have 
learned in Maryland, so we have a better understanding of how 
to help small businesses with cybersecurity.
    Lastly, I would like to thank all the witnesses that are 
here today that have joined us in this discussion. My hope is 
that by the end of this hearing, we will know where we are in 
our effort to keep the SBA and small businesses safe from 
cybercrime, a clear sense of where we need to go to ensure our 
data is kept safe, and ideas on the best way to achieve these 
results.
    Thank you, Mr. Chairman.
    Chairman Rubio. Thank you.
    And just claiming my time on behalf of Florida, we have no 
snow.
    [Laughter.]
    And I can see the Bahamas from my backyard.
    All right. Our fist panel of witnesses is Ms. Maria Roat, 
the Chief Information Officer at the U.S. Small Business 
Administration. She previously served as the CIO at the 
Department of Transportation, was the Deputy CIO for FEMA, 
Chief of Staff and the CIO at DHS, and in numerous other 
Government IT roles. In addition, she retired from the U.S. 
Navy with the rank of Master Chief Petty Officer following 26 
years of active duty and reserve service.
    Charles Romine is the Director of the Information 
Technology Laboratory at the National Institute of Standards 
and Technology, NIST, under the Department of Commerce. At the 
ITL, Dr. Romine develops and disseminates the cybersecurity 
standards and guidelines for Federal agencies and U.S. 
industry. The ITL also uses emerging IT to help meet national 
priorities such as homeland security applications.
    We all want to thank both of you for being here, and we 
will begin with you, Ms. Roat.

STATEMENT OF MARIA ROAT, CHIEF INFORMATION OFFICER, U.S. SMALL 
            BUSINESS ADMINISTRATION, WASHINGTON, DC

    Ms. Roat. Thank you, Mr. Chairman, Ranking Member Cardin, 
and members of the Committee.
    I joined SBA 2 and-a-half years ago after serving as the 
Chief Technology Officer at the Department of Transportation. 
Prior to that, I worked for 10 years at the Department of 
Homeland Security. At the time I came on board at SBA, the 
agency had experienced eight CIOs over a 10-year period. The 
lack of consistency negatively impacted the agency's technology 
footprint, and since taking over the position, my team and I 
have tackled many issues head on.
    I am pleased to present a different picture today than what 
I inherited. We significantly upgraded the agency's technology 
stack and through comprehensive improvements generated $11 
million in savings and cost avoidance.
    Along the way, I have enjoyed the support of Administrator 
McMahon. I am proud of the work of my team and colleagues.
    Under my direction, we continue to drive innovation and 
move aggressively to address deficiencies and improve SBA's 
cybersecurity posture. The result is that SBA is now a leading 
Federal agency in its cybersecurity capabilities.
    Today, SBA employees have greater access to secure modern 
technology and productivity tools. Small businesses and 
entrepreneurs have an improved user experience, and they can be 
assured that we are protecting their information assets.
    A key part of achieving this is taking an enterprise 
approach to modernization and moving our application systems 
and data to the cloud. In early 2017, we were the first agency 
to deploy DHS's Continuous Diagnostics and Mitigation, CDM, 
into the cloud. We ingest data from our on-prem assets, 
multiple cloud services, and even legacy IT to provide a 
detailed picture of our environment. This greatly reduced the 
number of tools and services in use while strengthening 
protection and detection capabilities.
    Like many organizations, the number one threat to SBA is 
email. Phishing attacks are not just a nuisance. They are a 
serious and effective means to gain unauthorized access to 
sensitive information.
    Over the past 6 months, my cybersecurity team identified 
and investigated nearly 500 phishing attacks. We purged over 
6,800 malicious emails from employee mailboxes, and working 
with DHS, we removed nearly 300 malicious internet websites 
that were being used for phishing or distribution of malware.
    The agency's website at sba.gov is the first place many 
small business owners engage with SBA, and the site receives 
more than 10 million unique visitors per year.
    In 2018, during National Small Business Week, we launched 
our agency website to simplify customer access to SBA services.
    In addition to this complete website re-platforming and 
design, my office continues to partner with our program offices 
to introduce modern technologies, help them manage large 
datasets, and develop much needed system improvements for our 
small business community.
    In 2017, we worked with the Office of Capital Access to 
launch the Lender Match Tool to better connect borrowers with 
lenders. We helped the Office of Disaster Assistance deploy a 
new disaster credit management system to enhance our disaster 
loan processing. We are working with our Office of Investment 
and Innovation on a new platform for our SBIC program to allow 
us to better manage the lifecycle of SBICs.
    We are beginning a project with our Office of Capital 
Access to replace our micro loan IT system to better manage 
data and loan information.
    We will soon engage our Office of Entrepreneurial 
Development to replace the centralized Web-based reporting 
system used by our resource partners: SBDCs, SCOREs, Women 
Business Centers, and our Veteran Business Outreach Centers.
    And we continue to support the work of Administrator 
McMahon on the launch of the new Women's Digital Learning 
Platform. I believe she discussed this with you during a recent 
testimony before the Committee.
    These are examples of actions that are helping transform 
SBA from an agency with many stovepipes, unstable technology 
and infrastructure, to a more proactive and innovative 
enterprise services organization. We are becoming much more 
responsive to the business technology needs of SBA program 
offices, and we are recognized across the Federal and industry 
IT community as a technology leader and innovator. We have 
certainly come a long way in a short period of time.
    Thank you for the opportunity to speak with you today. I 
look forward to your questions.
    [The prepared statement of Ms. Roat follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Rubio. Thank you.
    Dr. Romine.

   STATEMENT OF CHARLES ROMINE, Ph.D., DIRECTOR, INFORMATION 
  TECHNOLOGY LABORATORY, NATIONAL INSTITUTE OF STANDARDS AND 
                           TECHNOLOGY

    Dr. Romine. Chairman Rubio, Ranking Member Cardin, and 
members of the Committee, thank you for the opportunity to 
appear before you today to discuss NIST's cybersecurity efforts 
as they relate to small businesses.
    Small businesses are more innovative, agile, and productive 
than ever, thanks to the capabilities delivered by information 
technology, but the IT security challenge for small businesses 
looms larger than ever.
    In the cybersecurity realm, NIST has worked with Federal 
agencies, industry, and academia since 1972, and NIST's role 
has been expanded to research, develop, and deploy information 
security standards and technology to protect the Federal 
Government's information systems against threats as well as to 
facilitate and support the development of voluntary industry-
led cybersecurity standards and best practices for critical 
information.
    NIST has a longstanding and ongoing effort supporting small 
business cybersecurity. This is accomplished by providing 
guidance through publications, meetings, and events.
    NIST has worked with interagency partners, including the 
Small Business Administration, the Federal Trade Commission, 
Federal Bureau of Investigations' InfraGard program, and DHS's 
Cybersecurity and Infrastructure Security Agency to host 
cybersecurity workshops, training webinars, and has provided 
online resources for small businesses.
    More recently, in response to the NIST Small Business 
Cybersecurity Act, NIST launched the NIST Small Business 
Cybersecurity Corner website to put key resources in one place. 
Small Business Administration, CISA within the Department of 
Homeland Security, and Federal Trade Commission are 
contributors to this website. These agencies as well as 
nonprofit organizations are providing small business-focused 
resources to be shared through that site, and they will promote 
awareness and use of the site.
    In 2016, NIST released a major revision to the popular 
report ``Small Business Information Security: The 
Fundamentals.'' The report is designed for small business 
owners with little cybersecurity expertise and provides basic 
steps needed to help protect their information systems.
    I would like to highlight a document that the Committee may 
be familiar with, ``The Framework for Improving Critical 
Infrastructure Cybersecurity,'' or the Cybersecurity Framework, 
which many organizations, including many small businesses, use 
to manage their cybersecurity risk.
    Published in 2014 and revised in 2017 and 2018, the 
framework provides a voluntary, risk-based, flexible, 
repeatable, and cost-effective approach that relies on 
voluntary standards, guidelines, and practices to help 
organizations identify, assess, manage, and communicate 
cybersecurity risks.
    In addition to the Cybersecurity Framework, NIST has 
developed extensive cybersecurity standards and guidelines, 
including a risk management framework that can be customized 
for small businesses and implemented on a voluntary basis to 
help protect a small business' intellectual property and 
organizational assets.
    Building further on the success of the Cybersecurity 
Framework, NIST released the draft Baldrige Cybersecurity 
Excellence Builder, a self-assessment tool to help 
organizations of all sizes better understand the effectiveness 
of their cybersecurity risk management efforts.
    Small businesses constitute the backbone of the U.S. 
manufacturing sector. Within NIST, the Manufacturing Extension 
Partnership, or MEP, has a specific focus on assistance to 
small manufacturers and operates a nationwide network with MEP 
centers located in every U.S. State and Puerto Rico.
    In 2008, the National Initiative for Cybersecurity 
Education, or NICE, a public-private collaboration among 
Government, academic, and industry, was established to enhance 
the overall cybersecurity capabilities of the United States.
    In August 2017, NIST released the NICE framework, which is 
a national resource that categorizes and describes 
cybersecurity work.
    The NIST National Cybersecurity Center of Excellence is a 
collaborative hub where industry organizations, Government 
agencies, and academic institutions work together to address 
businesses' most pressing cybersecurity issues. This public-
private partnership enables the creation of practice 
cybersecurity solutions for specific industries as well as for 
broad cross-sector technology challenges.
    NIST recognizes that it has an essential role to play in 
helping small businesses. The NIST programs that I have 
demonstrate that NIST's cybersecurity portfolio is applicable 
to a wide variety of users, from small- and medium-sized 
enterprises to large private and public organizations.
    Thank you for the opportunity to present NIST views 
regarding cybersecurity challenges facing small businesses, and 
I will be pleased to answer any questions that you may have.
    [The prepared statement of Dr. Romine follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Rubio. Thank you both.
    I am going to defer the majority of my time at the front 
end.
    I just want to start actually with a story and then a kind 
of comment. I would love your input on this.
    So, about 2 years ago, according to an account that was 
shared with me, a small midsized company in South Florida 
shared with me that they got to work on a Monday morning and 
found that their entire system had been locked, and they had 
gotten, somehow, notification. I believe they said by email, 
but basically, all of their financial and proprietary business 
records had been stolen. And that in the message, they 
basically said to them, ``We want you to send us $500,000 in 
Bitcoin. We know you can afford it because we have your 
financials. We are not asking for a million. We are asking 
$500,000.''
    They contacted law enforcement and were basically told, 
well, if you want your information back, you are going to have 
to pay it.
    This was a company that--I would not say they are tiny. 
They are certainly profitable and a growing business but 
certainly not a large company. They had bars on the windows and 
an alarm system in their office, but they were wholly unaware 
that anybody even knew they existed, much less that a foreign 
actor from North Korea or somewhere else would target them.
    What do you assess writ large is the awareness that exists 
today among the millions of small and midsized businesses in 
America that they can be targeted this way, and what are we 
doing to create more awareness that this could happen to them?
    Dr. Romine. Well, thank you, Mr. Chairman, for the 
question.
    It is certainly the case that businesses of all sizes are 
susceptible to cybersecurity risk, and I think we are seeing 
increasingly that that is manifested through attacks on 
organizations of all sizes, so I understand the concern.
    From our perspective, from the NIST perspective, the way 
that we manage that is by trying to communicate more 
effectively to small and medium businesses that the size of 
your organization does not make you immune to the potential for 
cyber risk and that you have a responsibility in the same way 
that every organization manages financial risk and reputational 
risk and HR risk and all other types of risk. You have a 
responsibility as an organization to also manage your 
cybersecurity risk.
    Now, stating that after the fact, after someone has been 
attacked, I am not trying to blame the victim here. I am just 
saying that the goal for NIST is to try to raise that awareness 
across all sectors of the economy and at all scales that there 
is a responsibility to manage that risk, and that we have 
resources available that can help you do that.
    Chairman Rubio. What's your sense of the general awareness? 
I know it is not directly your department but just interacting 
with this issue.
    Ms. Roat. So with the SBA, I think the Small Business 
Development Center is working with the Office of 
Entrepreneurial Development. Working with those small 
businesses, many times it is not that the tools are not there 
and toolkits are not there, but I think there needs to be more 
engagement and more communication with the small businesses to 
get out in front of that and facilitation and getting that 
information sharing out there.
    You can tell a small business, ``Protect your 
enforcement,'' but how do you do it? What is that checklist? I 
think there needs to be more engagement on that, adding on to 
what Dr. Romine said.
    Chairman Rubio. Ranking Member.
    Senator Cardin. Well, thank both of you for your testimony.
    Ms. Roat, on April 25th of last year, this Committee held a 
hearing in regards to preparing small businesses for 
cybersecurity success. After that hearing, then Chairman Risch 
and I sent a letter to Administrator McMahon with some of the 
suggestions that came out of that hearing, and we asked her 
view on requiring a number of Small Business Development Center 
counselors to be certified in cybersecurity assistance, a 
certification program for part-time cybersecurity professionals 
to fill the void that exists and IT workers that will service 
small businesses, a cybersecurity boot camp for small 
businesses, and forming a cybersecurity co-op to pull together 
willing buyers from various cybersecurity products and 
services, lowering the costs to small businesses for these 
products.
    We have not gotten a reply to that letter. Are you aware 
that that letter was sent, and can you just tell us what 
progress has been made in regards to those suggestions?
    Ms. Roat. So I am aware of the letter. I think in the 
context of the work that SBA's Office of Entrepreneurial 
Development has done with DHS, they are working on the Small 
Business Development Center, the cyber strategy for those small 
businesses, those SBDCs, and I think some of the elements that 
are in that letter should be incorporated as part of what 
should be done as part of that plan.
    I know that plan is in final clearance right now, but those 
elements should be at least vetted and worked through as part 
of that plan with SBA, the Office of Entrepreneurial 
Development, the SBDCs, as well as DHS.
    Senator Cardin. So when can we expect to receive that?
    Ms. Roat. It is in final clearance right now, going through 
SBA and DHS.
    Senator Cardin. A couple weeks? A month?
    Ms. Roat. I am not entirely sure. I do know that it is 
complete, and it is being vetted through SBA up to the 
Administrator now and through DHS.
    Senator Cardin. Well, I would encourage you to try to get 
that to us, particularly in response to our letter.
    There was an OIG report dealing with SBA's most serious 
management and performance challenges, and several categories, 
the OIG report gives you progress for implementing the 
recommendations. However, the OIG report also states at SBA, 
outstanding IT security vulnerabilities remain, and the agency 
had significant deficiencies in IT security controls.
    Can you tell us the progress in implementing those 
recommendations or those findings?
    Ms. Roat. So the original management challenges, they were 
handed to me in October of 2016 when I walked in the door at 
SBA.
    I can tell you over the last 2 years, we have made 
significant progress, and we have actually taken not small 
steps, but very big steps to improve our cybersecurity posture 
at SBA.
    Not only have we gotten our arms around the entire 
technology stack from the infrastructure upgrading, all of our 
servers patching, we have consolidated our tool sets. We are 
now using cloud-based tool sets to monitoring all of our on-
prem environment, all of our cloud-based environments. We are 
taking log data, and that includes our legacy systems, taking 
all that data. So we have visibility of our entire enterprise.
    We are current on our patch levels across the entire 
organization. We are not running old operating systems and 
anything like that anymore. We have taken care of that. We have 
gotten rid of old equipment, old hardware, old software, and we 
have consolidated a lot. And we are actually taking an 
enterprise view of SBA.
    Last fall, we launched our Enterprise Security Services, 
and we are nearly completing onboarding the program offices, 
where there were previously stovepipes.
    So we have taken not little steps; we have taken some very 
big steps to get our arms around what is going on at SBA 
through the entire technology stack for our cybersecurity to 
make sure that that data is protected.
    Senator Cardin. I would ask that you keep our staff updated 
as to the progress you are making and complying with those 
concerns. I would appreciate that.
    Ms. Roat. Will do.
    Senator Cardin. Dr. Romine, you mentioned the Cyber 
Framework, NIST's Cyber Framework. I would be interested in how 
that is tailored towards small businesses and making it more 
useful for small businesses.
    Also, if you could, as you know, Congress passed the Small 
Business Cybersecurity Act. It was signed into law August of 
last year. I understand the implementation is not what--it 
would be unrealistic to expect that it is fully implemented, 
but if you could give us an idea of how you are implementing 
those requirements, I would appreciate it.
    Dr. Romine. Thank you, Senator.
    First, let me take the opportunity to thank you for your 
recent visit on Monday to NIST. We are really grateful for the 
interest that you display in the Institute.
    With regard to the Cybersecurity Framework, I would like to 
point out that during the development of the framework, we 
sought input from a very wide array of stakeholders and 
potential stakeholders, including small businesses, and we 
strove mightily to ensure that the Cybersecurity Framework as a 
framework was scalable across sectors, up and down the supply 
chain, and from large to very small businesses. So we tried to 
keep it in plain language.
    We focused on just the five functions of identify, protect, 
detect, response, and recover, and tried to give a common 
lexicon so that people could discuss cybersecurity posture and 
their cybersecurity requirements with vendors, for example.
    So we feel that we have anecdotal evidence that many small 
businesses are adopting the framework in whole or in part to 
either begin a cybersecurity risk management program for their 
company or to augment and buttress one that already exists.
    With regard to the Act that you mentioned that specifically 
calls on NIST to provide more support for small businesses, I 
just want to reiterate that we rolled out just a few weeks ago 
what we call the ``Small Business Cybersecurity Corner,'' which 
is a website that is dedicated to providing as much useful 
information to small businesses as we possibly can. This 
includes resources from NIST but also resources from our other 
Federal partners as well as from nonprofit organizations that 
may have useful content that they can provide for small 
businesses to help manage their cybersecurity risk.
    Senator Cardin. Thank you.
    Chairman Rubio. Senator Shaheen.
    Senator Shaheen. Thank you. Thank you both very much for 
being here and what you are doing to help small businesses.
    Ms. Roat, last week, we had a hearing on Chinese industrial 
policy, and one of the questions that I asked one of the 
witnesses had to do with what SBA is doing to help small 
businesses deal with the cyber threat, whether it is from the 
Chinese or others.
    You just laid out very clearly what is happening internally 
with controls at the SBA, but can you talk about what else SBA 
is doing to help those small businesses deal with cyber 
threats? Because, unfortunately, one of our witnesses at that 
hearing said that the SBA really is not doing very much and 
that they need to step up the game in order to help small 
businesses deal with an issue that is a huge challenge.
    Ms. Roat. So I am aware of the training that the SBDCs are 
offering. In some of the programs last fall, I reviewed some of 
their materials, and the training runs from very basic 
cybersecurity, things that you should be doing as a small 
business, and then stepping into a little bit more detail. So 
they are providing some of that training.
    I cannot answer if they are telling people specifically do 
not buy these products or do not buy this software. That, I do 
not know, but I have seen some of the materials and that they 
are training those small businesses.
    Senator Shaheen. Is there further discussion about what 
else either the SBDCs or other arms, other ways in which the 
SBA can help small businesses?
    Ms. Roat. I think through our partnership with DHS, the 
SBDC--again, I mentioned earlier the cyber plan that has been 
put together that is in final clearance. I think that that will 
go a long way to education, the role of the SBDCs and what they 
need to do, not just offering basic training, but what other 
things they should be doing to help address exactly what you 
are talking about.
    Senator Shaheen. Have you thought about partnering with 
other agencies, whether it is Homeland Security, with the plan?
    I know last year, there was a requirement that in order to 
bid on certain defense contracts, there had to be certain 
cybersecurity measures in place for small businesses, and that 
presented a huge challenge to many of our businesses in New 
Hampshire because they just did not have the capacity, the 
resources to get the help they needed in order to quality.
    Has the SBA thought about partnering with DoD or other 
Government agencies that are requiring certain cybersecurity 
protections in order to bid for Government contracts?
    Ms. Roat. I know the program offices are working closely 
with other agencies on those requirements for cybersecurity as 
well as other things. There are a number of different groups, 
whether we work with DHS or DoD or others, and I know there are 
certifications in many of the other programs that SBA offers.
    To your question specifically, how are we engaged on that, 
I am not sure that I have a complete answer on that----
    Senator Shaheen. Yeah. I think----
    Ms. Roat [continuing]. As far as the certifications and the 
requirements.
    I work with small businesses in my office all the time, and 
I do hear from them. I was on the FedRAMP program as the 
director, and I heard from many small businesses about the 
requirements around FedRAMP and security and cloud and how they 
get their applications to the cloud and the security 
requirements and should they be partnering with an AWS and a 
Microsoft and those big cloud providers, for their 
applications. I understand some of the challenges that they are 
having because they have brought those to me specifically when 
I was on the FedRAMP program.
    Senator Shaheen. Well, thank you. It is an area that I 
think we should be looking at ways in which we can be creative 
and provide more assistance because it is clearly needed.
    Dr. Romine, one of the entities that exists that helps 
small businesses--and you mentioned that in your written 
testimony--is the Manufacturing Extension Partnership. They 
have done a great job in New Hampshire with providing 
assistance, whether it is around cyber issues or in other ways, 
manufacturing processes with our businesses, and yet it is one 
of those programs which is consistently recommended by this 
Administration to be eliminated.
    So can you talk about the importance of maintaining the MEP 
programs and what kinds of things they do to help business?
    Dr. Romine. Certainly. Thank you for the question.
    From our perspective, the MEP program is a really effective 
means of spreading the word on many different aspects of what 
my laboratory works on and most particularly in cybersecurity. 
So we have collaborated with MEP to provide additional guidance 
specifically related to the previous question, which is how to 
satisfy the requirements the Department of Defense has in 
pointing back to our guidance, Special Publication 800-171, 
which is the protection of controlled unclassified information. 
So there is additional guidance that helps to clarify for small 
businesses what they can do that is being distributed through 
the MEP programs.
    With regard to the program itself, if Federal funding 
should be suspended--and that is something that, of course, is 
up to Congress and the Administration to work out, and I have 
no purview to speak on that score, but the States, as you know 
in your home State, also provide significant funding to those 
MEP centers. So although they might be required to reduce their 
scope, I think they would still continue.
    Senator Shaheen. I would just correct you on New Hampshire.
    Dr. Romine. All right.
    Senator Shaheen. While we provide some support to the MEP 
program, without the Federal support, I think it is very 
unlikely that our program would continue.
    Dr. Romine. Okay. All right.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Chairman Rubio. Thank you.
    Just as a follow-up to both of you, last February, we heard 
from the Director of the FBI before the Senate Intelligence 
Committee in an open hearing, and he discussed how smartphones 
made by Chinese government-owned companies and -backed 
companies like ZTE and Huawei--and this is a quote from him--
have the capacity--this is a quote--``capacity to maliciously 
modify or steal information.''
    Then in the 2019 NDAA, the National Defense Authorization 
Act, it restricted the Federal Government's use of products 
manufactured by Chinese-based technology firms for substantial 
or critical components of any systems or as critical 
technology.
    Can you discuss a little bit about what the Federal 
Government is doing to ensure that not only are we not using 
these products, but that we are also cautious against white 
labeling, which is basically the buying of technology parts 
from one of these companies where they are just not labeled as 
manufactured by one of these companies? They put a generic 
label on it, sometimes even their own label, and we are 
concerned because sensitive government work and essential 
government work in America, we rely heavily on the private 
sector and so if they are compromised with the existence of 
this technology, be it in routers or handheld devices or what 
have you, a potential liability for the whole system, what are 
we doing to address that particular component?
    Dr. Romine. Thank you, Mr. Chairman. I am happy to address 
that question.
    Although NIST has no role in specifying a specific nation 
state or other threat that is directly coming from a specific 
country, we do have an active program, an ongoing program in 
supply-chain risk management. This is the kind of guidance that 
we put out in consultation and collaboration with other Federal 
agencies on principles and practices that organizations can use 
to try to ensure that the equipment they purchase has the 
integrity that they expect it to have by ensuring, to the 
extent practicable, the supply chain of that product or 
service.
    Chairman Rubio. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, and thank you to our 
witnesses for being here today as well.
    I am excited. First, Ms. Roat, I want to congratulate you 
on the progress that you and your team have made to improve 
cybersecurity capabilities and protect the valuable personal 
information of millions, and that is just so far. We still have 
work to do, but congratulations. Thank you so much.
    Now that the Small Business Administration has caught up, 
what are you viewing as tomorrow's top cybersecurity 
challenges, and what can we do to combat those emerging 
threats?
    Ms. Roat. Like you said, Senator, we have come a long way 
over the last 2 and-a-half years, and while we have built the 
foundation, we have put some walls on what we have done, we are 
continuing to build out our house around cybersecurity.
    We are actually a leader across the Federal Government now 
in the tools and the capabilities we have. We have been pilots 
for DHS on their CDM and their tech programs. We are going to 
continue to build on that and really continue to drive that 
innovation in our cybersecurity practices so they are not 
waiting on somebody else. We are using those tools that are 
using artificial intelligence that are really applying machine 
learning, so that we understand what is in our environment, 
where our data is going, how it is moving across the 
organization, building in things like SD-WAN across our 
application and building security in through our entire 
technology stack.
    We are continuing to work with our program offices. While 
we still have legacy systems in our environment and we are 
continuing that work, our modernization path is taking us, 
looking at the enterprise as a whole, where previously it used 
to be in stovepipes, so that as we are looking at our data, how 
is our data being used, how is it moving across the 
organization, who is using it, both within the agency and 
externally with our partners.
    So next steps around cybersecurity are continuing on that 
path with our data strategy, getting our arms around our data, 
making sure we know exactly where it is, who is using it, and 
putting those role-based access controls around all of that.
    Senator Ernst. Yes. Thank you for that.
    I am not sure if Senator Shaheen had mentioned it, but 
yesterday we had a subcommittee in Armed Services on emerging 
threats and capabilities. The focus of our subcommittee was 
artificial intelligence and machine learning and that type of 
technology. So it just even discussed how can we best utilize 
and leverage different departments, different agencies within 
the Federal Government working together through research and 
development and then applying those technologies. Do you see 
that that synchronization could possibly exist between our 
agencies as each of you look into cybersecurity and artificial 
intelligence?
    Ms. Roat. So I think a lot of that activity through the CIO 
Council is going on right now around a lot of the artificial 
intelligence, a lot of those things really looking at how that 
can be applied. Zero-trust networks is one of those things as 
well. But through the CIO Council, the committees under the CIO 
Council are actually--the information sharing is going on, the 
pilots, the testing, and gathering that.
    So through the CIO Council--let me put a plug in for them.
    Senator Ernst. Yeah, very good.
    Ms. Roat. But there is a lot of work already under way in 
that area.
    Senator Ernst. Very good. Well, I appreciate that.
    Dr. Romine, thank you so much for being here as well. Those 
new small businesses and small businesses that have gained new 
capabilities such as access to rural broadband may be 
especially vulnerable to cyberattacks.
    I come from a rural area. I know this is a concern that so 
many of our businesses do have. What steps can we take to 
ensure that these types of small businesses that are newly 
exposed to those cyber threats are equipped with the tools and 
the resources they need to be cybersecure as quickly as 
possible?
    Dr. Romine. Thank you, Senator.
    I think the best way I can address that is to again talk 
about the urgency of getting the word out on the importance of 
managing cybersecurity risk at all businesses, at all levels, 
regardless of size or location.
    That word, we are trying to spread more effectively, and 
this hearing, I am grateful is going to be doing that in part. 
We get a spotlight on this issue.
    The resources that we are making available through the 
Small Business Cybersecurity Corner can be a good starting 
point, the NIST website that we have stood up to specifically 
address the concerns of small business in the cybersecurity 
arena.
    So I would just point to that and to the Cybersecurity 
Framework as a flexible way of helping initiate the management 
of cybersecurity risk in any organization.
    Senator Ernst. Very good. We just need to ensure that they 
know the path forward and how to make sure that they are secure 
and that their clients or customers are secure as well, so 
thank you.
    Thank you very much to our witnesses, and thank you, Chair 
and Ranking Member.
    Chairman Rubio. Thank you.
    Senator Rosen.
    Senator Rosen. Mr. Chairman, thank you for being here today 
and for the work that you are doing.
    I was an original cosponsor of the NIST Small Business 
Cybersecurity Act. I am very happy it was passed into law last 
session.
    So can you tell me how you think the situation has improved 
since we have put that bill in?
    I would also like to know--you said we have the website up, 
and there are on-ramps for small businesses. Do you have the 
data or the numbers of the amount of usage of those websites?
    Dr. Romine. Thank you for the question.
    We do not yet. The website is relatively new. We will be 
tracking the number of times that it is visited and downloads 
of any documents that we have, not to origin, but just in terms 
of numbers of downloads.
    Senator Rosen. I think it would be really helpful if you 
provided us, those analytics, even with region of the country 
or where it is, because if that website is not getting utilized 
enough, then what is our challenge to be sure that people know 
that they have this way to use it as an on-ramp?
    Dr. Romine. Absolutely right. I appreciate that.
    I think we still have a lot of work to do to get the word 
out. As I said, the website has been stood up for just a few 
weeks, and so it is very early days yet, but our goal is to 
ensure that we do the maximum that we can to ensure that there 
is awareness of the site.
    Senator Rosen. How are you spreading the word?
    Dr. Romine. We are doing that in part through--again, this 
is very, very early days.
    Senator Rosen. Uh-huh.
    Dr. Romine. But we are doing this in part through our 
partnership with SBA. We are doing it through our partnership 
with the Manufacturing Extension Partnership program within 
NIST. So we have collaborated on resources to help support 
small businesses in some of the requirements that the 
Department of Defense has in their acquisitions requirements.
    So we are going to leverage that because that is a 
nationwide system that is designed to get the word out to small 
businesses, specifically manufacturers, but we think it is 
broadly applicable.
    We have a number of people who are subscribers to 
information services to keep abreast of activities that are 
going on in cybersecurity, and then we have a huge number of 
private-sector partners with whom we work collaboratively on a 
regular basis. We want them to get the word out as well.
    Senator Rosen. I would hope you consider partnering with 
our Chambers of Commerce, and particularly in the States, maybe 
each governor probably has an office of small business, and 
that through our State legislatures, we would be able to 
disseminate the information.
    Dr. Romine. Absolutely.
    Senator Rosen. I think that would be something terrific.
    Senator Rosen. And as we disseminate this information at 
NIST, we are sure that we have a well, robust, trained 
cybersecurity workforce. What kind of investments do you think 
we can make in helping provide the people pipeline and trying 
to promote good business practices there?
    Dr. Romine. NIST is privileged to lead the interagency 
activity, the National Initiative for Cybersecurity Education, 
or NICE, and that is dedicated to strengthening the pipeline of 
highly qualified workers in the cybersecurity arena, both 
cybersecurity-educated workers who we expect to work in the 
cybersecurity field as well as a greater understanding of the 
importance of cybersecurity and some of the elements in a 
generally more educated workforce.
    Senator Rosen. Who are your partners with that in our 
States that we can point to?
    Dr. Romine. Let us see. In the State, I know that we are--
--
    Senator Rosen. How are we getting the information?
    Dr. Romine. I know that we are working with a lot of other 
Federal agencies in that space. We have, again, a pretty active 
website of available activities. We have contractors who have 
developed a website that is specifically designed to display 
where jobs are available across the Nation and where there is a 
concentration of workers.
    Senator Rosen. If it does not get down to individuals who 
want to seek training for these things, the problem I see in a 
lot of these is we pass these frameworks, but then the 
information is not really--it is not disseminated to people who 
really need it.
    Dr. Romine. Right.
    Senator Rosen. School guidance counselors, college guidance 
counselors, career and technical education, apprenticeships.
    So it is great that we have these websites. It is great 
that you have all this information and you have some partners, 
but if it is not ultimately sent out to everyone in a way that 
we can turn that into action, then it is not very useful.
    So that is why I am hoping we are going to see some future 
analytics from you that will point us as to how we can educate 
our schools, guidance counselors, and all the like to prepare 
students for these kinds of jobs.
    Dr. Romine. Right. We certainly do intend to be more 
aggressive about getting the word out, and we routinely 
interact with both the U.S. Chamber of Commerce as well as 
local Chambers of Commerce in some of the dissemination of 
information that we have.
    Senator Rosen. Thank you.
    Chairman Rubio. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    There is a Dickensian quality to the internet. It is the 
best of liars and the worse of liars simultaneously. It can 
enable. It can ennoble. It can degrade. It can debase. It all 
depends upon how it is used.
    So we have a situation where IoT, the Internet of Things, 
is also IoT, the Internet of Threats. You just cannot separate 
them out unless you are realistic and want to build in the 
protections, the safeguards to ensure that the vulnerabilities 
are minimized.
    Last Congress, I introduced a bill called the Cyber Shield 
Act, which I will introduce again this year. I am doing it with 
Congressman Lieu, over in the House, and what the bill would do 
is to create an advisory committee on cybersecurity, experts 
from academia, industry, small businesses, consumer advocacy 
communities, and the public to create cybersecurity benchmarks 
for IoT devices, such as baby monitors, cameras, toasters, 
refrigerators, toys, et cetera.
    The IoT manufacturers can then voluntarily certify that 
their products meet these industry-leading cybersecurity and 
data security benchmarks and display the certification in 
public, like Energy Star. There it is. Now for cyber, you have 
the same kind of information.
    My bill would reward manufacturers adhering to the best 
data security practices while also ensuring small businesses 
can make more informed choices. They are going to need 
information so they can make the right choice.
    Ms. Roat, how could we help reward small IoT businesses 
that are adhering to and investing in the best cybersecurity 
and data security protections?
    Ms. Roat. So as we are working with the small business, I 
know the Small Business Development Committees, the SBDCs, are 
working with small businesses to try to educate them on what 
they need to do.
    I had read the bill on the Cyber Shield. I think one of the 
challenges around that is making sure that it is kept up to 
date and that people want to volunteer to participate in that 
to get the information out, so that the small businesses in 
turn know how to use and get to that information. And that is 
critically important.
    But that education piece and the communication and the 
constant facilitation, not just providing, say here is 
something, go look at it, but really facilitating that 
discussion with the small businesses so they really understand 
and truly understand what it really means and what those 
threats are.
    You said IoT, the Internet of Threats, but how does the 
small business not just--how do you get through to them to 
really understand what that threat factor is?
    Senator Markey. I appreciate that. I do not know a lot 
about electricity or other, but I know what Energy Star is. So 
I am just an ordinary consumer trying to figure it out, and I 
am kind of saying, ``Okay. That is a voluntary standard, and I 
will trust that.'' If I find out I do not trust it, next time I 
am in the store, I am just going to say that was a piece of 
crap that I got sold, just so you know, sir or ma'am. So that 
is kind of how I view this. It is just information.
    Then one of the problems in cybersecurity is you do have to 
keep updating it.
    Ms. Roat. Mm-hmm.
    Senator Markey. It is just not a static thing. So the 
industry that is selling the devices should have a 
responsibility to keep updating, so that the consumer or the 
small business knows that this is a 2019 standard, not a 2016 
standard, and there it is, a 2019 five-star or a four-star or a 
three-star. But then you can choose. If you do not want to pay 
for the five-star, fine, but you understand that at a three-
star and two-star, you are taking a risk.
    Would you think that would be helpful to small businesses 
to have that kind of information, especially the ones that have 
a little bit of--maybe they have got a 23-year-old on staff who 
can tell them what it means, you know, making the decision.
    [Laughter.]
    Ms. Roat. I think it could be helpful, especially for those 
small businesses where you have folks that may have that 23-
year-old, but that 23-year-old really, again, needs to 
understand what--like the Energy Star, what that really means 
and what the importance of it is.
    Senator Markey. Right.
    Ms. Roat. So having something like that definitely would be 
useful for the small businesses because they could have a list 
and say okay, this, this, this, and this is what I need.
    Senator Markey. Right. And I agree with you. I mean, it is 
a way of not having a mandate, but yet it is voluntary. You do 
it or you do not do it. You do not even have to do it. You just 
have your product out there without a cybersecurity, but when 
you are trying to buy a car and it says five stars for safety, 
four, three, two, you can ask extra questions. If you have a 3-
year-old, you can ask extra questions. What is the security 
that is missing in this vehicle? If you want to just go 
discount, you can do it, but you are taking the risk, in other 
words. It is right there for you to see.
    Having the information ultimately, from my perspective, is 
going to be something that it drives the whole industry because 
people will gravitate towards excellence. They will gravitate 
towards security and especially every day that there is another 
breach, and you are now purchasing something for your company, 
your small company, that could help to avoid something that 
happened at Equifax or TJ Maxx or something where their whole 
system went down, and then you find out later, they were using 
a three-star safety system, which in a lot of instances, that 
is what the big companies were using.
    So you really want to make this a virtuous technological 
competition, and then those that are doing the best let you 
know. And I think then people would gravitate towards it.
    I am hoping I can work with the community towards achieving 
that goal.
    Thank you, Mr. Chairman.
    Chairman Rubio. Thank you.
    I want to thank both of you.
    Do you have any further questions?
    [No response.]
    So thank you both for being here. I appreciate it. We are 
grateful for your testimony and for answering our questions.
    We will transition to the second panel as I begin to 
introduce them, so thank you. I guess we will have to get one 
more chair up there.
    So let me introduce the second panel as they come up and 
get ready. Karen Harper of Cambridge, Massachusetts, is the 
president of Charles River Analytics, Inc., which uses 
international property to serve Government and private clients. 
Ms. Harper is also the principal scientist at Charles River, 
specializing in developing unmanned systems and other 
innovative products.
    Elizabeth Hyman is an executive vice president at CompTIA, 
here in Washington, D.C. She has extensive experience with IT 
policy from working with Lenovo and the Consumer Technology 
Association. Her role in government affairs for this technology 
association began by working for the Attorney General, the Vice 
President, and the Office of the U.S. Trade Representative.
    Stacey Smith is the president and CEO of the Maryland Cyber 
Alliance.
    Senator Cardin. You can tell by her scarf.
    Chairman Rubio. You can tell by the scarf, he says.
    The Maryland Cyber Alliance or CAMI. Is that right? At 
CAMI, Ms. Smith works with business partners, cybersecurity 
professionals, and Maryland government to create cybersecurity 
jobs. Previously, she was a small business owner and served as 
the Cyber Community Manager for the Maryland Department of 
Commerce.
    Thank you all for being here with us today.
    Ms. Smith, we will begin, if you have a statement for us.

STATEMENT OF STACEY SMITH, PRESIDENT AND CEO, CYBER ASSOCIATION 
                       OF MARYLAND, INC.

    Ms. Smith. Thank you.
    As you mentioned, I am Stacey Smith, the president of the 
Cybersecurity Association of Maryland, Incorporated, or CAMI, 
as we are known, for short. Our organization is a statewide, 
nonprofit organization based in Baltimore City, and we are with 
a mission of job creation and sales generation through 
Maryland's cybersecurity industry.
    Our members include almost 450 of Maryland's cybersecurity 
product and service companies, many of which are small 
companies focused on helping small businesses be more 
cybersecure.
    In 2017, the Better Business Bureau conducted a national 
study and published the ``State of Cybersecurity Among Small 
Businesses in North America'' report. Eighty-five percent of 
the businesses surveyed had 50 or fewer employees and were in 
various industry sectors, including retail, construction, 
financial, manufacturing, real estate, health care, and others.
    The research found that small businesses are becoming more 
aware of cyber threats and are taking proactive steps to 
enhance their cybersecurity. In fact, 9 out of 10 said they 
have some form of cybersecurity in place, with the most common 
being antivirus and firewalls.
    But that is not nearly enough to ensure a business is safe 
from today's advanced cyber threats. As a result, they leave 
themselves vulnerable and may even lose more through a 
cyberattack than they would have spent implementing 
cybersecurity protections to prevent them.
    If small businesses are more cyberaware than ever, why are 
not they doing more to protect themselves, their data and their 
customers?
    The BBB's research found that companies are ill-equipped, 
primarily due to a lack of resources, including funds, and the 
lack of knowledge--what to do, who to consult or hire.
    Here are a few real-world cyberattack examples provided by 
some of our members.
    A small marketing firm in Baltimore was hit with a 
ransomware attack. Everything on their server, including client 
documents, financial spreadsheets, and the project tracking 
software at the core of their day-to-day business, were locked 
and held for ransom.
    Hackers had used automated bots to search the internet for 
vulnerable servers without the necessary security controls. 
When the bots reached the agency's server, they hit pay dirt.
    The agency reached out to a Maryland cybersecurity company 
that restored their systems, and 317,000 files had to be 
painstakingly restored. Two days of client work were lost. It 
took 4 days to fully restore everything, and the business spent 
thousands of dollars to mitigate the situation.
    In another example, the CFO for a small Maryland 
construction company fell target to an email phishing scam. He 
received a message from what looked to be one of their regular 
payees asking him to update wire information and transfer 
money. He did so.
    Seeing a vulnerable target, the hacker sent another message 
that ultimately allowed access for a ransomware attack through 
which the company's files were locked until the company paid 
the ransom money.
    In total, the company lost almost $200,000 through the wire 
transfer, ransom payment, and cost for a Maryland cybersecurity 
company to completely restore and rebuild their network.
    Lastly, another recent example, a small organization 
noticed anomalies affecting the CEO's electronic calendar and 
documents and reached out to a Maryland legal firm for help. 
The firm's data security breach response team's investigation 
revealed that the organization's recently fired head of 
Information Technology had hacked back into the organization's 
systems and deleted key events and documents of the CEO and ex-
filtrated electronic personal health information of thousands 
of Marylanders.
    The U.S. Attorney's Office and FBI were notified. The 
hacker was charged and sent to prison. The legal firm helped 
the organization notify affected individuals.
    Had these businesses had proper protections and employee 
training in place, it is possible that the cyberattacks could 
have been prevented or mitigated, saving them from immeasurable 
stress; time, production and financial losses; and even 
reputational damage.
    But, as previously mentioned, small businesses often do not 
know what help they need or where to go for help, and the fear 
of the cost keeps many of them from investing in cybersecurity 
before they are faced with a cyberattack.
    Luckily, for Maryland businesses, CAMI exists to connect 
them to companies within our State with answers to their 
questions and products and services they need to be 
cybersecure.
    They can connect online through our directory of Maryland 
cybersecurity providers. They can also attend events, including 
our upcoming Maryland Cyber Day Marketplace, to connect face-
to-face with local cybersecurity companies.
    If funding is the issue, our State legislators passed a 
nationally unique bipartisan bill in 2018, making it more 
affordable for businesses to be cybersecure. The bill provides 
a tax credit for Maryland businesses with 50 employees or less 
for 50 percent of what they spend on cybersecurity products and 
services purchased from a qualified Maryland cybersecurity 
seller, up to $50,000 annually for that tax credit.
    In 2019, we have $4 million to award in tax credits to 
small businesses through this program.
    Our organization has partnered with the Maryland Department 
of Commerce, the Better Business Bureau of Greater Maryland, 
Regional Manufacturing Institute of Maryland, Maryland 
Manufacturing Extension Partnership, and others to make small 
businesses aware of the tax credit program to incentivize them 
to be proactive rather than reactive in their efforts to be 
cybersecure.
    This local bill provides a tool for Maryland cybersecurity 
companies to generate local sales, grow, and ultimately add 
jobs as they do so, and it incentivizes Maryland businesses to 
purchase the cybersecurity products and services they need, 
thus ensuring a more cybersecure business environment in 
Maryland.
    Thank you for the opportunity to testify, and I am happy to 
answer any questions.
    [The prepared statement of Ms. Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Rubio. Ms. Hyman.

STATEMENT OF ELIZABETH HYMAN, EXECUTIVE VICE PRESIDENT, COMPTIA

    Ms. Hyman. Chairman Rubio and Ranking Member Cardin, on 
behalf of the Computing Technology Industry Association, 
CompTIA, thank you so much for having me here today.
    CompTIA is the leading voice and advocate for the $1.6 
trillion U.S. information technology ecosystem and the more 
than 11.5 million IT professionals who design, implement, 
manage, and safeguard the technology that powers the world's 
economy.
    As we have discussed, small businesses are the backbone of 
our economy, but they are fertile targets for cybercriminals 
looking to exploit vulnerable defenses. Small businesses have 
fewer employees and resources than large enterprises and 
because of this have less to invest in cybersecurity.
    CompTIA works with small businesses and customers on a 
daily basis, and we are committed to ensuring that they are 
educated on and protected from the threats that they are 
facing.
    At one time, cyberattacks were considered just an IT 
problem, and that is certainly not the case anymore. 
Cybersecurity issues have grown in size and scope, becoming 
more sophisticated, harder to detect, and more widespread.
    As Senator Cardin has already noted, according to the 2018 
Verizon Data Breach Investigation Report, 58 percent of breach 
victims were characterized as small businesses. Research by 
Cybersecurity Ventures estimates that by 2021, cybercrimes will 
cost $6 trillion per year.
    While improved cybersecurity is needed across the board, 
small companies are the ones with the steepest challenge. 
According to our research, 62 percent of small businesses have 
internal resources focused on security compared to 91 percent 
for medium-size businesses and 96 for large firms. 
Understanding the problems facing small businesses is only part 
of the challenge.
    We must also aggressively put forward solutions and enlist 
the help of public partners like the Small Business 
Administration and NIST to help address these challenges.
    We must focus on improving three key elements of modern 
security. The first are technology tools. SMBs need advice and 
guidance on what a modern security toolset should include. This 
can range from data loss prevention software to more proactive 
tools and methods, such as penetration testing which assesses 
the strength of a defense system.
    Secondly, focus is needed on helping small businesses 
develop business processes that reflect how to build security 
policies and establish proper enforcement. This will include 
internal operations as well as relationships with outside 
suppliers of services or partners. A great place to start in 
this discussion is to develop metrics to track the 
effectiveness of security programs and processes, such as, for 
example, tracking results from phishing expeditions.
    Lastly, we need effective employee education. Many small 
businesses have a small team or a solo IT professional who 
needs to have a solid foundation in security skills, sufficient 
specialized expertise in a few key areas, and then the ability 
to work with an outside partner, such as a managed security 
services provider, when deep expertise is called for.
    CompTIA is one of several vendor-neutral certifying bodies 
that offer certifications, high-stakes exams, that are ANSI- 
and ISO-accredited.
    CompTIA is the market leader, having certified more than 2 
million people in more than 100 different countries. There are 
many ways our certifications can help support small businesses 
and enhance their cybersecurity.
    CompTIA's Cybersecurity Pathway includes certifications 
that describe the basics of IT systems, such as our IT 
fundamentals exam or an A-plus exam, and others that describe 
the technical aspects of cybersecurity, such as Security Plus, 
CompTIA Cybersecurity Analyst Plus, and Penetration Testing 
Plus.
    Completion of at least IT Fundamentals and A-Plus would 
position a small business IT professional to successfully 
handle internal cybersecurity matters and oversee third-party 
managed security firms.
    Finally, it is vital that we focus on establishing a 
culture of cybersecurity within any organization, including 
small business owners and principals. As CompTIA outlined in 
our white paper, ``Building a Culture of Cybersecurity: A Guide 
for Executives and Board Members,'' there are six principles 
that all organizations can adopt on a scale that is appropriate 
for their business.
    One, integrate cybersecurity into a business strategy.
    Two, insist that the corporate structures reinforce a 
culture of cybersecurity, otherwise leadership is not sending 
the message that this matters.
    Understand that employees are the biggest risks. Consider 
education for the employees, even considering access to company 
data to mitigate damage.
    Focus on detection. The longer it takes to detect a data 
breach, the more expensive that breach becomes.
    Emphasize data protection, that is, collect what is needed. 
Share only what needs to be shared.
    And, finally, develop robust contingency plans and test 
them.
    By working together and continuing to embrace the private-
public partnership that has long benefited the cybersecurity 
ecosystem, we can do a great deal to help better prepare small 
businesses and businesses of all sizes for the cybersecurity 
threats they are facing.
    I thank you for the opportunity to participate in the 
hearing today and look forward to your questions.
    [The prepared statement of Ms. Hyman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Rubio. Ms. Harper.

    STATEMENT OF KAREN A. HARPER, PRESIDENT, CHARLES RIVER 
                        ANALYTICS, INC.

    Ms. Harper. Good afternoon. Thank you, Chairman Rubio, 
Ranking Member Cardin, and members of the Senate Committee on 
Small Business and Entrepreneurship for inviting me to testify 
today on the current state of cyber vulnerabilities facing 
America's small businesses and the impacts that current 
policies, though well intended, are having on small business.
    My name is Karen Harper. I serve as president of Charles 
River Analytics, a small research and development company 
employing 180 people, headquarters in Cambridge, Massachusetts, 
with a satellite presence in Wakefield, Rhode Island, and 
remote presence across the country.
    Since 1983, Charles River has been delivering intelligent 
systems software to transform our customers' data into mission-
relevant tools and solutions across Federal agencies.
    For a small business, we bring an impressive array of deep 
technical expertise to these efforts, including artificial 
intelligence, sensor and image processing, human systems 
integration, and notably for today's hearing, cybersecurity.
    Charles River has been on the cutting edge of research and 
development related to cyber defense for many years. Through 
this research, we have gained a deep understanding of the 
vulnerabilities of our Nation's public and private 
institutions, corporate entities, and private citizens. It is 
imperative to provide the Nation's small businesses with 
straightforward, pragmatic policy guidance and effective 
support to improve our own cyber defense systems.
    Recent efforts to standardize cyber defense strategies have 
been implemented in the defense industry through the adoption 
of the National Institute of Standards and Technology, or NIST, 
Special Publication 800-171, to protect controlled unclassified 
information, or CUI, in non-Federal IT systems.
    While we are small, business leaders understand the good 
intentions of the NIST standard. Compliance with it is 
currently extremely costly and overly burdensome.
    The publication includes 110 IT control requirements. Many 
contractors are still grappling not only with the technical 
complexities of the requirements, but also with a lack of 
clarity about what actually constitutes controlled unclassified 
information.
    This lack of clarity has been a critical concern in Charles 
River's NIST compliance program. Because CUI is not always 
clearly identified, we declared that all data on our corporate 
networks must be treated as CUI. It may sound simple; it has 
been far from it.
    Our IT and software engineering teams took on the challenge 
of NIST compliance with gusto. However, they encountered 
multiple issues in their efforts. First, NIST requirements are 
vague. All of the 110 NIST controls can be implemented in a 
variety of ways, and there is a dearth of specific guidance on 
preferred implementation methods.
    As a result, we spent approximately 800 person-hours to 
simply interpret the control requirements.
    Second, we found that many of our customers seemed equally 
confused and unable to provide helpful clarification and 
guidance throughout Federal agencies.
    Fortunately, our team is very technically savvy. After 
deciphering all of the NIST controls, we were able to develop a 
risk-gap analysis and formulate a plan of action. We then spent 
an additional 1,500 person-hours to implement that plan.
    While we are confident that Charles River is now fully 
NIST-compliant, we remain unsure of how and when that 
compliance will be confirmed through audit.
    The costs of NIST compliance are quite burdensome. We spent 
more than $300,000 in hardware, software, and vendor 
maintenance contracts. We estimate that we will spend an 
additional 30 percent each year on non-labor IT to maintain our 
compliance. Our IT staff has almost doubled in size and cost, 
specifically to support NIST compliance.
    Now, I recognize that as an advanced software engineering 
company, our IT infrastructure is more complex than the average 
U.S. small business, and so our costs are likely higher than 
most. However, we cannot kid ourselves that true NIST 
compliance can currently be achieved at a reasonable cost to 
small business.
    Finally, NIST compliance places a significant burden on our 
technical staff. Creating and maintaining compliant 
infrastructure drains resources from project work, resulting in 
less progress per dollar.
    Perhaps most importantly, NIST compliance hinders and 
frustrates our top-performing staff, causing them to seek 
employment in other sectors, thus making it difficult to 
maintain competitive business advantage and, at the end of the 
day, competitive national advantage.
    Given the challenge, expense, and business impacts of our 
NIST compliance program, we recommend improvements to the 
Government specification and support for its implementation 
across three areas.
    First, we require clarity in the definition and management 
of CUI, both provided by our DoD customer base, but also 
generated by our company in the course of doing business.
    Second, we require flexibility in the application of 
defined NIST controls. IT requirements across industry varies 
widely, and the implementation of NIST-compliant controls 
should reflect this diversity.
    Finally, we require clear guidance to support proper 
compliance, and that guidance must be delivered in easily 
accessible implementation guides.
    Thank you for allowing me to testify before the Committee 
today. I would be happy to answer any questions you may have 
for me.
    [The prepared statement of Ms. Harper follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Rubio. Thank you.
    I'm going to defer my question time to Senator Hawley, who 
I think has to go and do something right away.
    Senator Hawley. Thank you very much, Mr. Chairman. Thank 
you, Ranking Member, and thank you to the witnesses for being 
here.
    Ms. Harper, I just want to stay with you. The citizens of 
Missouri, my home State, have been faced with a series of 
cyberattacks across a range of industries.
    Last year, Blue Springs, which is in the Greater Kansas 
Area, the Blue Springs Family Care was hacked by malware and 
ransomware, and nearly 45,000 patient records were stolen, 
including patients' Social Security numbers, account numbers, 
driver's licenses, medical information, and so on.
    We had another case in Fort Leonard Wood, which I think the 
Chairman mentioned earlier, in which Fort Leonard Wood, our 
military installation there removed surveillance cameras made 
by Chinese manufacturers due to significant security concerns.
    As I just listened to your testimony, as I read your 
written testimony and those of your fellow panelists, I was 
struck by the sheer magnitude of the problem, but also what you 
have just been talking about, the incredible difficulty of 
complying with the NIST standards.
    You suggested something I found interesting, which was in 
your written testimony, which was incentivizing large IT 
commercial vendors to develop NIST-compliant variance of 
market-leading IT products. Can you just say something more 
about that idea?
    Ms. Harper. Absolutely.
    We all agree that the threat is paramount. It is a targeted 
threat in many cases. It is a challenging threat for the entire 
Nation, for all of our institutions, our companies, small 
businesses, and us as individuals. We cannot minimize the 
threat, but the way that we address that threat is still very 
nascent in my opinion.
    As we have gone through our NIST compliance program, which 
took an immense amount of effort and challenge for a very 
savvy, high-tech software engineering company, small businesses 
in this country that do not do the work we kind of do, do not 
stand a chance to be as effectively implementing something like 
NIST 800-171, at least.
    So can we transfer some of the requirement for that on to 
the IT sources that we all already rely upon? So Office 365 for 
Microsoft and AWS with their Web service and cloud 
infrastructure. Is there a way that the Government can 
incentivize those players in the industry as well as the 
hardware side with Cisco, et cetera, to augment and provide 
NIST-compliant versions that will take the complexity of this 
process out of the game for small businesses that do not have 
the technical savvy that my staff does?
    Senator Hawley. Is it your thought or hope that this would 
make these sort of protections, effective cybersecurity, more 
affordable for small business as well? I mean more widely 
available, more affordable, easier to implement.
    Ms. Harper. Many of us already pay a great deal of money to 
manage our software licenses for these very common tools. 
Augmenting that cost to get a NIST-compliant collection at a 
reasonable cost seems a very reasonable approach.
    If my IT staff could have bought AWS NIST-dot-1, dot-2, we 
absolutely would have done it, and we probably would have spent 
a lot less than $300,000 in doing it.
    Senator Hawley. Yeah. The costs that you outlined in your 
testimony here are just extraordinary.
    What can we do? What might this Committee do to help make 
this happen?
    Ms. Harper. So, first of all, I think recognizing the NIST 
Standard 800-171 is a really valiant attempt to address this 
set of threats that is facing us.
    I do not want it to go away. I want it to be a more 
manageable process. I want it to be more accessible, even to a 
staff like mine.
    When we were introduced to the requirements for NIST--and I 
will say this anecdotally at best--my IT team pulled me and my 
CFO into a conference room and spoke to us for about 2 and-a-
half hours, and we left the room feeling quite ill. We could 
see exactly the cost that was coming at us, but the cultural 
impact that this has also had on our company.
    So I do not want to dismiss any of the value of NIST. I 
want to recognize that where we are right now is not good 
enough in supporting its implementation. I would like to see 
Congress able to support NIST and other organizations like SBA 
to provide access to recipe guidelines for various companies 
that have IT requirements--X, Y, and Z. Here are the five 
things you need to buy and implement. If you need to do lots of 
other things in A, B, and C, then here is the extra 
complexity--more complex set of things that need to be done.
    That level of documentation, spending, 4 of our 8 months of 
implementation, just trying to interpret the controls was 
disconcerting, at best.
    Senator Hawley. That is extraordinary.
    Yeah. Thank you so much for your testimony. Thank you for 
being here.
    Thank you, Mr. Chairman.
    Chairman Rubio. Ranking Member.
    Senator Cardin. Well, I thank all of you for your 
testimony.
    Ms. Harper, I am trying to get a handle on exactly how we 
can accomplish the objective that is critically important when 
you are dealing with Federal agencies that have sensitive 
information, and we expect the contractors to have security for 
that information, how we achieve those objectives, but do it in 
a way that is less burdensome and certainly less impact on the 
work of your talented people.
    We appreciate the follow-up for today. You certainly have 
piqued our interest, and we are still a little bit confused as 
to how we should proceed in order to deal with some of the 
issues that you have raised. So I hope you will feel 
comfortable in working with us to try to figure out how we can 
accomplish this.
    Ms. Harper. I and my staff would be more than happy to help 
to shape some activities.
    I think that it will be important to recognize different 
requirements and recognize the different companies.
    Yes, we are a defense contractor. We hold a great deal of 
sensitive information that is not classified, and we recognize 
the importance of that.
    We equally recognize the importance of our own data and our 
staff data.
    So protecting all of it is imperative, but there has to be 
a more flexible way to go about implementing this kind of 
standard than we have accomplished.
    Senator Cardin. And I appreciate it. I appreciate that 
attitude, recognizing we need to do it.
    Ms. Harper. Yes, absolutely.
    Senator Cardin. So let us figure out the best way to do it.
    Ms. Hyman, I looked at some of your numbers, and I am 
thinking that there are a lot of small businesses that have 
been compromised that do not come forward and tell us. Either 
they are embarrassed or they do not want their customers to 
know they have been infiltrated. So we do not even have the 
full numbers of small businesses that have been compromised 
through cyberattacks.
    What have you found is the best selling point to get a 
small businesses owner focused in the right direction as to how 
to deal with their cybersecurity needs?
    Ms. Hyman. Senator, thanks for the question.
    To your point, one thing that I would present to you is 
that we have a very robust research department at CompTIA, and 
we are open to and would welcome the opportunity to do more 
research into the small business situation, try to get to the 
bottom of what some of the challenges are that they are facing 
in addition to what we have put in our written testimony.
    But we work day-to-day with a lot of small businesses and 
particularly on the managed service side of things. We have an 
IT security community which is sort of a crowdsource group of 
companies, and so we are able to talk to them about the dollar 
value, what is their exposure from a business point of view. 
And it is really the title of this hearing. It is an 
existential threat, and they could ultimately go out of 
business if they are not paying attention to some of the basic 
issues that are out there.
    The other thing is because we are a certifying body for the 
workforce, we are very focused on trying to attract talent and 
make sure that that one person in that small business has the 
requisite knowledge and can validate their skill sets, so that 
they can at least have an opportunity to manage what they need 
to manage on a day-to-day basis, but also have the education 
and expertise to work with managed service providers, managed 
security providers. That third-party relationship is really 
vital I think to a lot of small businesses, particularly not 
those that are in software, but like an HVAC company.
    Senator Cardin. Certainly.
    Ms. Hyman. Yeah.
    Senator Cardin. Thank you. That is very helpful.
    Ms. Hyman. Yeah.
    Senator Cardin. Of course, I am very proud of what Maryland 
has done. Ms. Smith, congratulations on getting that 
legislation through the Maryland General Assembly because 
obviously cost is an issue. There is not a lot of flexible 
funding for a company that has one employee. So for them to get 
the expertise they need to deal with cyber, it is a challenge 
financially.
    So the credit in Maryland seems like a very attractive 
tool. I think I heard you say somewhere around $4 million in 
credits for----
    Ms. Smith. Yes, sir. Yes. That is the year 2019. There is 
$4 million available for tax credits for that program.
    Senator Cardin. So it is a little early, I guess, to know 
the exact impact here, but can you just tell us what you have 
been hearing from the small business community in regards to 
the attractiveness of this tool and getting the focus on 
cybersecurity?
    Ms. Smith. Sure.
    I hear more on the side of our cyber companies telling us, 
``How do I apply? How do I get approved as a seller?'' But we 
work closely with the Better Business Bureau of Greater 
Maryland and Regional Manufacturing Institute, as I mentioned, 
and they are getting the word out to their businesses who are 
excited about it, trying to figure out how do they access it.
    I think because it is so new, just in October, we got the 
final details all worked out and are able to release it.
    But working even with the MEP group organization in our 
State, we have done some programming to let the businesses know 
about it, and they are very excited that it is there. It is 
just right now figuring out who is the qualified sellers that 
they can purchase those products from and what do they need. A 
lot of them do not even know what do I need, where do I start. 
So just connecting them with the right resources, that is where 
we are playing a role in helping them identify those.
    Senator Cardin. I am a believer in federalism. So we are 
watching very closely what you are doing in Maryland. We might 
try to take some of those programs and look at them as national 
programs. So we will be following very closely what is 
happening in the great State of Maryland. So thank you very 
much.
    Chairman Rubio. Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman, and I want to 
thank our witnesses for being here today.
    I mean, most small businesswomen and businessmen are busy 
earning a living and trying to make payroll. They read about 
the need to enhance their cybersecurity, but most of them--and 
many Senators--do not know where to start.
    Tell me again what Maryland has done to try to educate 
small business people.
    Ms. Smith. Well, our organization is primarily focused on 
our cybersecurity companies growing and generating sales. So we 
have partnered with a lot of business organizations in the 
State that do help the small business community or even larger 
businesses to access whatever they need to be cybersecure.
    So we create programs throughout the year. We have a big 
event coming up in April where they can connect face-to-face. 
It is called our Maryland Cyber Day Marketplace. We will have 
about 100 of our cyber companies there. This year, we have 
created what we call ``Information Station,'' so they can come 
and, if you do not know where to start, somebody will guide 
you. So just partnering, I think, with those organizations, 
other organizations, and also having an online directory. Most 
States do not.
    Senator Kennedy. Tell me what, if anything, does the SBA do 
here. I mean, if I am a small businessman and I want to enhance 
my cybersecurity and I call SBA and say, ``How do I enhance my 
cybersecurity?'' What are they going to tell me?
    Any of you.
    Ms. Smith. I know that we see SBA members or staff people 
at some of the events that we go to, so I know they are out 
there.
    I was not aware that the SBA had cybersecurity resources 
until I was asked to testify here, so I do not know.
    Senator Kennedy. What would you advise me as a small 
businessman? I come to you and I say, ``I want to enhance my 
cybersecurity. Where do I go? What do I do?''
    Ms. Hyman. I would say there are a number of different 
avenues, but I think one of the--well, I mean, there is the 
National Cybersecurity Alliance. There are the SBDCs, which are 
starting to try to take a more vocal----
    Senator Kennedy. What is an SBDC?
    Ms. Hyman. The Small Business----
    Ms. Harper. Development Center.
    Ms. Hyman [continuing]. Development Center. Thank you.
    So they are localized. For example, I was looking at the 
Michigan SBDC earlier today, and they have developed a very 
comprehensive website, which is great. It is a start.
    But we also work with NIST, for example, in terms of what 
they do, or DHS has local--localized efforts to reach out to 
small businesses. But I will tell you it is a very dispersed 
conversation.
    So, as a nonprofit trade association, we are constantly 
trying to educate our membership, and it ranges from managed 
service providers to small companies to large companies, but we 
are trying to educate them as to the resources that are out 
there. That is a role that we can play, partnering with these 
various public entities.
    Senator Kennedy. Ms. Harper, do you want to add anything?
    Ms. Harper. Senator, I believe that being a small business 
owner and not having the technical background that my company 
does--and you recognize that there is this threat out there 
that you do not understand; you do not understand how it 
impacts your systems, your payroll systems, anything else that 
you are housing in your organization--sadly, I would say I bet 
people start with google.com and start looking for some 
resources.
    I would hope that the presence of SBA and the NIST 
Cybersecurity Framework and things would pop out as resources 
to that small business owner to provide that, but I am quite 
confident that they do not know about it today.
    Senator Kennedy. Okay. You may or may not know this, but I 
assume most small business people start thinking about 
cybersecurity after they have had a problem.
    Would that be----
    Ms. Harper. As a research company very focused in 
cybersecurity, I would like to think we are a little ahead of 
the game, but understood.
    Senator Kennedy. With the exception of your company.
    How do we reverse that? I try to put myself in the shoes of 
the small businessperson. Again, you are working hard. You are 
trying to make payroll. You read these articles about 
cybersecurity, but you do not know where to start.
    Ms. Harper. And furthermore, sir, when you see the news and 
you recognize that TJ Maxx and OPM are being compromised, how 
do you even hope to start----
    Senator Kennedy. That is a great point. That is a great 
point.
    Ms. Harper [continuing]. And provide that? So you are 
hoping that industry is going to rally around you and provide 
you, hopefully, with the tools that are being developed to 
protect those kinds of industries, and hopefully, you can 
afford them once they are available.
    Ms. Hyman. I wonder also if there is a message to be 
delivered, which is that it is a competitive advantage for a 
small business to have taken on certain steps that show they 
are aware of cybersecurity and that they need to differentiate 
themselves from the guy down the street. That is certainly one 
thing to talk about.
    But you are right. This is a very comprehensive effort 
required from an educational point of view, from providing 
reasonably affordable tools that are out there, and making that 
business case.
    Ms. Smith. As I indicated in my testimony, one of the 
reasons that companies say they do not implement cybersecurity 
programs or invest in cybersecurity is they do not know who to 
use. That Google search is going to turn up a ton of resources, 
so maybe having resource directories of cyber providers.
    Senator Kennedy. That is just going to give you Google's 
preferred providers.
    Ms. Smith. Right, right. Who pays Google, right, would be 
at the top of the list.
    Ms. Harper. And, by the way, the phishing folks on the 
other side using that as a capture.
    Senator Kennedy. That is a good point.
    Thank you, all three of you. It was very interesting, very 
helpful.
    Chairman Rubio. Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    Ms. Hyman, we all know that cybersecurity has become more 
important than ever for businesses of all size, and I wanted to 
sort of follow on the thread of the discussion so far.
    Say you have an entrepreneur coming to you. Can you explain 
why entrepreneurs in businesses of all size, including the 
smallest startups, should be thinking about cybersecurity and 
how it plays an essential role in protecting their customers? 
As you said, it is a competitive advantage. So you have someone 
who is starting a company. They are just getting started, and 
they come to you. How do you talk them through this? How do you 
talk them into making the investment in cybersecurity, when 
they are just trying to get this thing set up? And how do you 
explain what the steps should be as they go through this 
process?
    Ms. Hyman. It is a great question. Thank you, Senator.
    I think what I would like to do is just take one step back 
and share with you a little bit of research that we have done 
recently at CompTIA with small businesses that was not directly 
related to cybersecurity, but had some interesting results.
    So the five technology areas of concern among SMBs, the top 
five, number one was figuring out how to integrate different 
applications, data sources, platforms, devices, number one. 
Number two, effectively managing and using data, because any 
company now is trying to figure out how to make that customer 
experience a better one. Number three, cybersecurity and data 
cybersecurity. Number four, modernizing aging equipment or 
software; and number five, getting more ROI or a bang for the 
buck, if you will, from technology investments.
    The reason I raise that with you is those are the top-line 
concerns for 650 SMBs that we actually surveyed, and I think 
that is representative of a lot of companies around the 
country. So what are they asking for? They are asking for tools 
to be able to figure out how to do all these things.
    One of the proposals, I believe, in the legislation is to 
have an SBDC official who might be able to provide assistance 
and guidance on some of these things. We would recommend that 
that individual be certified with an industry-recognized 
credential so that they have the wherewithal to help answer 
some of these questions. That is the beginning of a 
conversation.
    I would also say in terms of what resources are needed, 
training for the companies themselves. I mentioned earlier that 
oftentimes in a small company, there might be one person that 
is sort of responsible for taking care of the computers. Well, 
if that person had, for example, the investment in some sort of 
training--for us, it might be IT fundamentals, which gives a 
basic overview of what the technology landscape looks like and 
starts to get into some basic security issues or even an A-plus 
exam, and there are other groups like ours that do this. But if 
they have that initial training opportunity and the investment 
for that, they can do some of the basic things that they need 
to do, and they can also interact well with third parties.
    One thing I want to point out that I think is very 
interesting is on the updating and modernizing of equipment. So 
I understand a startup may well have newer issues, but pretty 
soon, they are going to have some of those problems as well.
    I do not know if you have looked at your Microsoft 7 and 
said, ``Oh my God, I cannot even get service for it anymore.'' 
So how do we continuously upgrade and modernize technology? I 
think that is an important investment to be made.
    So I hope that answers your question.
    Senator Duckworth. It does.
    Is there any move towards a certification program or 
something where either the businesses can be certified if they 
are handling a lot of data as, hey, we have gotten this Good 
Housekeeping Seal of Approval, good cybersecurity is installed, 
that becomes an advantage that they have over their 
competitors?
    Then also, on the other side of that, as they are looking 
for people who are experts, they go to the Google search. How 
do they know which companies are legit and which ones are 
really going to provide them with the right advice to move 
forward?
    Ms. Hyman. Well, I will share that CompTIA had a Trustmark 
program in place, and the IT Security Trustmark is an 
organizational credential. It is totally voluntary.
    When we first unveiled it, it was mapped to the NIST 
Framework. We found even thought we had pared that down rather 
significantly, it was still a big challenge for small 
businesses to meet a lot of the requirements of that Trustmark.
    But one of the things that we raised in our written 
submission was that perhaps that is something, working with 
companies like Charles River and elsewhere, where we can start 
to really define and pare down more significantly what that 
organizational credential looks like.
    We are happy to volunteer and give our organizational 
credential so that there is at least a basis for that 
conversation, and you can look at it. And then we can figure 
out how do we make that even a more effective credential going 
forward.
    Senator Duckworth. Thank you.
    Ms. Harper or either of one of you, do you want to add 
something to that?
    Ms. Smith. One of the things I wanted to mention is we have 
talked with our local Better Business Bureau about doing 
something like that, but looking at us as a small nonprofit 
saying where do we start with this, it was too much of an 
uphill climb for us. But the BBBs are there to ensure as a 
consumer, who are you buying from, who do you trust, and maybe 
that is an organization that would be good to involve if 
something like that would happen.
    And we have talked about it even in the procurement process 
for the State if a business was certified, whatever that is, 
that they might get a preferential treatment in the procurement 
process with our local State government.
    Senator Duckworth. Thank you.
    Thank you, Mr. Chairman.
    Senator Cardin. Mr. Chairman, just for one observation, if 
I might, because Senator Kennedy raised a very good point about 
the capacity of the SBA.
    The SBDCs are clearly an entity that could help on cyber. 
The letter that we wrote, this Committee, to SBA urged them to 
look at the SBDC's capacity to deal with cyber-trained helpers. 
I just mention that.
    Then Ms. Roat's testimony was they have limited resources 
in order to deal with it.
    Just one observation, if I might, since this is the week 
the President's skinny budget came out. He happens to cut--the 
Trump budget cuts the SBDCs by 23 percent. I know that we will 
do things here that will be different than the President's 
budget. I understand that, but I do think we also have to be 
realistic about the resources that are made available to the 
SBA.
    Chairman Rubio. Thank you.
    I just have one. I mean, my colleagues have covered a lot 
of the topics that I wanted to ask, but there is one. I think 
you have touched on it just a little bit.
    But I am curious about CAMI and its role in representing so 
many small businesses that are afraid to come forward and 
discuss vulnerabilities. Obviously, it has business impacts. On 
the one hand, obviously, if there is a breach of some sort, you 
want people to know about it; on the other hand, many 
businesses that are small and midsized businesses would 
struggle with a public disclosure that could theoretically, 
reputationally wipe them out.
    So how is CAMI handling that? What is it doing? First, it 
sort of highlights the number and severity of the attacks that 
are on small business, and then, in particular, helping small 
businesses that are afraid to come forward and discuss their 
vulnerabilities because, frankly, from those attacks is how we 
can improve our method of responding and preventing them.
    Ms. Smith. Sure. One of the things that we are 
implementing--and it will come out in our revised website in 
April--is case studies, which allows our members to talk about 
businesses that have been breached and what they did to remedy 
the situation and the cost involved and the steps that they 
took and things that they might have been able to do ahead of 
time to prevent that.
    So I think illustrating it through this is a manufacturer, 
this was a small retail organization, so they can say ``okay, 
that is me,'' just to know that someone else has gone through 
it.
    And contacting us, one of the things we do is anonymously 
put out a plea to our members. If anybody is available to 
handle this situation, so the business is not--their contact 
information or name is not out there, to then connect them with 
resources and give those resources to the business that is 
looking for that. They can also directly contact the businesses 
through our website.
    But that fear factor is certainly there, but that is also 
after they have been breached. If we can get to them before 
they have been breached and say, ``Put these protections in 
place,'' many of them would not suffer those breaches or 
attacks.
    Chairman Rubio. But the existence of those case studies, 
without outing a company, is very helpful to a small company 
that sees themself reflected in the case study----
    Ms. Smith. Absolutely.
    Chairman Rubio [continuing]. And understands that someone 
like them could also be hit by this.
    Ms. Smith. Absolutely.
    One of the things that we find all the time in what we do, 
even our organization when we were first created, we expected 
businesses to come to our programs and hear a talk on 
cybersecurity and how to be cybersecure. They do not do that.
    Our local SBA rep said the same thing, that they have tried 
to do programs for the small businesses, and they do not come. 
They know they have got to be secure. They are too busy or it 
does not apply to them, whatever.
    But going to organizations that are already doing things 
and making it a piece of their conference, put the information 
on their website in addition to the SBA website, things like 
that, small things that can be done, taking the message out to 
the business and marketing.
    We deal with our local government. They do not want to 
spend money on marketing and getting the word out, but you have 
got these great programs. How do you get the word out? And 
there has got to be some kind of method for telling the message 
and promoting what resources are available to those.
    Chairman Rubio. Well, I want to thank all three of you for 
being patient and being with us today. We have had a great 
hearing, and your input, as you saw from the questions and 
comments of some of our members I think has elicited thinking 
about, number one, things people may want to take back to their 
own States, but more holistically some of the challenges we 
face as we move forward on what SBA can do and what the Federal 
Government can do to empower small businesses to confront this 
very real 21st century challenge, and again, we thank you for 
being willing to be a part of this today because it is very 
helpful to us.
    The hearing on the record will remain open for 2 weeks, and 
any statements or questions for the record should be submitted 
by Wednesday, March 27th, at 5:00 p.m. and again, thank you so 
much for being here, and with that, this hearing is adjourned.
    [Whereupon, at 4:11 p.m., the Committee was adjourned.]

                      APPENDIX MATERIAL SUBMITTED
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  
                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
